AUDIT OF THE TIME AND ATTENDANCE PROCESSING
      SYSTEM DEVELOPMENT PROJECT (II)


              Audit Report No. 99-011
                February 17, 1999




             OFFICE OF AUDITS

       OFFICE OF INSPECTOR GENERAL
                      TABLE OF CONTENTS


BACKGROUND                                                                 2

OBJECTIVES, SCOPE, AND METHODOLOGY                                         3

RESULTS OF AUDIT                                                           4

KEY TAPS DECISIONS NOT BASED ON SDLC METHODOLOGY                           4

    Feasibility and Cost-Benefit of Alternative Solutions Not Considered   5

    Key Assumption for Proceeding with TAPS Based on Inaccurate
    Information                                                            8

    Recommendations                                                        9

DIRM'S CONTRACT MANAGEMENT NEEDS IMPROVEMENT                               9

    Contract Initiation                                                    10

    Recommendations                                                        11

    Contractor Oversight Not Effective                                     12

    Recommendations                                                        13

DIRM'S INTERNAL CONTROL PROCESS WAS NOT EFFECTIVE                          14

    Recommendation                                                         14

CORPORATION COMMENTS AND OIG EVALUATION                                    14

APPENDIX I – CHRONOLOGY OF KEY TAPS DATES                                  16

APPENDIX II – CORPORATION COMMENTS                                         18

APPENDIX III – MANAGEMENT RESPONSES TO RECOMMENDATIONS                     25
Federal Deposit Insurance Corporation                                                        Office of Audits
Washington, D.C. 20434                                                          Office of Inspector General




   DATE:                     February 17, 1999

   TO:                       Donald C. Demitros, Director
                             Division of Information Resources Management

                             John Lynn, Acting Director
                             Division of Administration


   FROM:                     David H. Loewenstein
                             Assistant Inspector General


   SUBJECT:                  Report Entitled Audit of the Time and Attendance Processing System
                             Development Project (II)
                             (Audit Report No. 99-011)


   The Office of Inspector General (OIG) has completed an audit of the Federal Deposit Insurance
   Corporation’s (FDIC) Time and Attendance Processing System (TAPS) development project.
   This report presents a summary of the TAPS development project and serves as a “lessons
   learned” document for the FDIC's use in managing future development projects, including the
   Corporation’s current efforts on a system to support the processing of personnel information.
   Our report includes eight recommendations for incorporating needed controls into the Division
   of Information Resources Management’s (DIRM) system development and contracting
   processes. FDIC’s lack of adherence to established and generally accepted system development
   life cycle (SDLC) procedures and DIRM’s ineffective contractor oversight practices contributed
   to the failure of TAPS and resulted in the unnecessary expenditure of significant corporate
   resources.


   BACKGROUND

   The OIG initiated an audit of the FDIC’s TAPS development project in November 1996. In June
   1997, we met with management to discuss our concerns and preliminary recommendations
   regarding the TAPS development process to that point. On September 29, 1997, we issued a
   final audit report entitled Audit of the Time and Attendance Processing System (TAPS)
   Development Project (Audit Report No. 97-106). This report paralleled our earlier discussions
   with management and identified three issues that the FDIC needed to address to improve the


                                                  2
TAPS development process. First, FDIC management did not have the information needed to
make informed decisions regarding the development approaches for TAPS because the project
team did not adhere to generally accepted system development methodologies when developing
cost-benefit and feasibility analyses. In addition, FDIC management and project personnel did
not have the information needed to properly manage the TAPS development effort because
progress reports did not compare results being achieved to projected costs, benefits, and risks.
Finally, the project team increased the risks associated with a successful completion of the
project by deviating from accepted SDLC methodologies and performing design and
development work before functional requirements were finalized. These issues seriously
impaired management’s decision-making ability regarding the viability of the project and
resulted in additional costs and resource consumption to re-perform many efforts already
completed.

FDIC management agreed with our findings and recommendations and committed to following a
structured approach for developing TAPS. On October 22, 1997, the FDIC's Audit Committee
requested that the Office of Internal Control Management (OICM) perform a review to
determine the effectiveness of the project’s internal controls and identify where internal controls
may have broken down in the SDLC process. On March 18, 1998, OICM issued its report,
which reiterated the issues identified by our office and contained several additional
recommendations.


OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of the audit were to determine whether (1) the TAPS development was adhering
to established and generally accepted SDLC procedures, (2) user requirements had been
adequately defined, (3) system deliverables satisfied user requirements in a cost-effective and
timely manner, and (4) adequate internal controls were incorporated into the design of the
system. Because management discontinued the TAPS development effort before finalizing
requirement and development activity, we were unable determine whether adequate internal
controls had been incorporated into TAPS.

To accomplish our other audit objectives, we interviewed DIRM, Division of Administration
(DOA), and contractor personnel responsible for developing TAPS. We also analyzed
documentation prepared during the development process, including planning documents, project
status reports, draft requirements documents, and design documents. In addition, we reviewed
current policies and procedures related to the FDIC’s SDLC methodology and attended TAPS
Steering Committee meetings and other TAPS project meetings. The TAPS Steering Committee
was comprised of senior management officials who made decisions on approaches regarding
TAPS. Because of the time-sensitive nature of the TAPS development project, we met with
DIRM and DOA personnel frequently throughout the audit to discuss our preliminary
recommendations.

We conducted our audit between November 1996 and August 1998 in accordance with generally
accepted government auditing standards.




                                                 3
RESULTS OF AUDIT

Although management committed to improving FDIC's development practices related to TAPS
in response to recommendations made by our office and OICM, DIRM and DOA continued to
deviate from FDIC’s SDLC process. Throughout our fieldwork, we advised TAPS program
personnel and the TAPS Steering Committee about the project's lack of adherence to the FDIC's
SDLC process. Specifically, we raised concerns about the quality, completeness, and accuracy
of cost-benefit information being provided to management for decision-making purposes. We
informed DIRM and DOA management that the lack of current, accurate, and complete
feasibility and cost-benefit information on TAPS was seriously impairing senior management's
decision-making ability regarding the project. However, management disregarded our concerns
and deviated from generally accepted SDLC approaches throughout the life of the project.

Following our earlier report, DIRM and DOA again proceeded with design and development
work before fully defining user requirements. In addition, the FDIC did not effectively manage
the development of TAPS, and contractor oversight was not effective. These actions resulted in
the unnecessary expenditure of at least $6.5 million and ultimately contributed to management's
decision to discontinue the project.

In June 1998, the FDIC discontinued the TAPS development effort because of design
complexities caused by DIRM’s failure to freeze requirements for the system. Shortly after the
project was discontinued, we met with the Directors of DIRM and DOA to discuss our final
conclusions regarding TAPS and to provide these management officials with our proposed
recommendations for managing future information technology (IT) efforts. These
recommendations, which are contained in this report, are aimed at ensuring that (1) management
has the information needed to make informed decisions regarding whether and how to proceed
with future development efforts, (2) DIRM disciplines itself to completing initial development
phases before proceeding to subsequent phases of development projects, and (3) project status
information and contractor oversight is improved so that management is aware of changes in
schedule, cost, and risk. Many of the recommendations contained in this report are similar to
recommendations contained in earlier OIG reports. We are restating the recommendations in this
report because of DIRM’s failure to effectively address the recommendations in the past.


KEY TAPS DECISIONS NOT BASED ON SDLC METHODOLOGY

Shortly following our initial involvement with the TAPS project in 1996, we began raising
concerns about the quality, completeness, and accuracy of cost-benefit information provided to
management for decision-making purposes. The lack of current, accurate, and complete
feasibility and cost-benefit information seriously impaired management's decision-making ability
regarding TAPS and resulted in the unnecessary expenditure of significant corporate resources.
Despite management’s commitment to improve its adherence to accepted SDLC methodologies
and, thereby, improve information supporting management decisions, the FDIC continued to
deviate from accepted practices throughout the project. The FDIC’s actions throughout the
TAPS development process continued to increase the risk associated with the project, resulted in




                                               4
ever-increasing expenditures of unnecessary funds, and ultimately resulted in the discontinuance
of TAPS development efforts.


Feasibility and Cost-Benefit of Alternative Solutions Not Considered

Throughout the development process, DIRM and DOA repeatedly took actions and expended
funds toward the in-house development of an automated time and attendance system without
formally evaluating the feasibility or cost-benefit of alternative solutions. Despite encountering
significant problems throughout the project and committing to improve the planning process
related to TAPS, DIRM and DOA did not re-evaluate their original course of action.

The purpose of a feasibility study is to provide senior management with: (1) an analysis of the
project's objectives, requirements, and system concepts; (2) an evaluation of alternative
approaches; and (3) a recommended approach. The purpose of a cost-benefit analysis (CBA) is
to provide management with adequate cost and benefit information to analyze and evaluate
alternative approaches. Because the structures of feasibility studies and CBAs are so similar,
FDIC's SDLC Manual allows them to be combined.

DIRM and DOA developed an initial risk assessment, dated June 1995, and a CBA, dated July
1995, to support their decision to proceed with the in-house development of TAPS. However,
these analyses did not use full life cycle cost data or formally evaluate alternative solutions, such
as implementing only the Corporate Time and Attendance Worksheet (CTAW), modifying a
commercial-off-the-shelf system, or modifying an existing system developed by another federal
entity. In addition, TAPS cost-benefit information did not evaluate technical, cost, or schedule
risks associated with the project or revisit original assumptions when significant changes took
place in the project's scope, cost, and schedule. We also noted that estimated cost savings
attributed to the development and implementation of TAPS were overly optimistic.

We met with DOA's TAPS program manager on May 2, 1997 to discuss our concerns regarding
the limitations of the TAPS risk assessment and cost-benefit analysis. We reiterated our
concerns to DOA's TAPS program manager on June 11, 1997 when significant changes were
taking place in the project's scope, cost, and schedule. We advised the DOA project manager
that alternative solutions should be formally evaluated and presented to senior management
before proceeding with further TAPS development activities. Despite a verbal commitment to
address our concerns, DIRM and DOA management awarded a $1.9 million contract to continue
the in-house development of TAPS on July 24, 1997 without the benefit of a thorough and
enhanced CBA or feasibility study.

On September 29, 1997, we reported on our concerns regarding the limitations of the TAPS
CBA and risk assessment in our report entitled Audit of the Time and Attendance Processing
System (TAPS) Development Project (Report No. 97-106). We noted that the TAPS CBA was
not supported by adequate documentation and that the assumptions underlying the analysis were
based on inaccurate and outdated information. We recommended in the report that DIRM and
DOA revisit the TAPS CBA and review and update it, as necessary, throughout the development
life cycle. We also recommended that DIRM and DOA evaluate the cost-benefit of alternative



                                                  5
solutions to TAPS before continuing with additional development work. DIRM and DOA
formally agreed to implement our recommendations and committed to following a structured
approach for developing TAPS.

In November 1997, OICM initiated a review of the TAPS development project to determine the
effectiveness of its internal controls and to determine where internal controls may have broken
down. OICM's report, dated March 18, 1998, reiterated the concerns expressed by our office.
OICM also determined that DIRM and DOA had informally considered three alternatives to
TAPS before the project was initiated, but that this effort was cursory in nature and not
adequately documented.

In December 1997, 5 months after awarding a contract to continue in-house development of
TAPS, DIRM and DOA completed revisions to the TAPS CBA. However, these revisions did
not include a formal evaluation of alternative solutions. DIRM’s Deputy Director stated that the
significant cost savings projected for in-house development of TAPS would make alternative
solutions non-viable. However, FDIC could not make informed decisions on the viability of
other alternatives without such a study. Further, the projected cost savings for TAPS continued
to be overly optimistic. The projected cost savings were outdated and based on a limited
analysis performed in 1995. The projected savings were based primarily on a reduction in
employee time to enter and process time and attendance information. However, the time savings
projections were unsupported and optimistic. Further, some of the projected timesavings still
being cited by DIRM and DOA in 1997, even if realistic, would have already been achieved
through the implementation of the FDIC’s CTAW in 1996.

OICM recommended in its March 18, 1998 report that DIRM and DOA document the required
components of a CBA and perform reviews of the projections and assumptions at various points
during the SDLC. During this same time frame, FDIC was encountering significant problems in
addressing TAPS requirements and designing a system architecture. A system architecture
provides the structure for data and automated processes that the application will employ to
support user requirements. However, despite these problems and management's commitment to
address the concerns raised in the OICM and OIG reports, DIRM and DOA increased the value
of the existing contract by 25 percent on March 18, 1998 without reconsidering the costs and
benefits cited in the December 1997 CBA.

On March 31, 1998, DIRM documented a cursory review of three alternatives to TAPS that had
been performed in 1995. The 1995 analysis had concluded that the alternatives were not viable
solutions for the FDIC's time and attendance requirements. However, this analysis was flawed
because the FDIC’s time and attendance requirements had not been defined at that time. In
addition, the FDIC’s actions to merely document prior analyses did not address the status of
alternatives in 1998, because TAPS requirements had been significantly modified on several
occasions throughout the development effort. When FDIC documented this 1995 analysis in
March 1998, it did not evaluate new potential solutions or re-evaluate potential solutions
considered immature in 1995.




                                               6
In May and June 1998, DOA began to question the assumptions underlying the projected cost
savings associated with the development and implementation of TAPS. On May 12, 1998,
DIRM and DOA revised the estimated cost savings attributed to TAPS from $15.2 million to
$12.9 million over 5 years. DIRM and DOA further revised the estimated costs savings of TAPS
on May 19, 1998 from $12.9 million to $1.5 million over 5 years. This more realistic evaluation
of TAPS cost savings should have been performed as early as June 1997, when significant
changes began taking place in the project's scope, cost, and schedule. Management would have
had more accurate and meaningful information on which to base its decisions had such an
analysis been performed in June 1997 when TAPS development efforts were being re-directed
because of significant problems or at other times when major changes occurred in TAPS risks,
costs, and schedules.

On May 21, 1998, DIRM and DOA awarded two additional contracts valued at approximately
$1.8 million to continue development of TAPS, again without the benefit of a thorough and
enhanced CBA. The TAPS Steering Committee justified the continued development of TAPS,
despite the drastic reduction in estimated cost savings, on the premise that TAPS would "correct
a deficiency in controls that was identified in a 1995 General Accounting Office (GAO) audit."
However, as discussed in the following section of this report, this information was not accurate
because GAO had no outstanding issues relating to the FDIC's time and attendance processes
after 1995. We advised the TAPS Steering Committee that the deficiencies cited by GAO in its
1995 and prior year audit reports had already been corrected by FDIC in 1996. However,
Steering Committee members disputed our statements.

On June 30, 1998, after expending at least $6.5 million on TAPS development and obtaining
only a functional requirements document and external design document, the TAPS Steering
Committee decided to discontinue the project.1 In July 1998, DIRM and DOA began researching
the feasibility of an integrated personnel system to be called the Corporate Human Resources
Information System (CHRIS).

FDIC management’s inability to make informed decisions regarding TAPS development can be
attributed, in part, to confusion on the part of DIRM and DOA officials regarding the FDIC's
own SDLC procedures. In a February 19, 1998 memorandum discussing OICM's review, the
Deputy Directors of DIRM and DOA stated "There was no FDIC SDLC in 1995." The officials
also stated "There are two versions of the FDIC SDLC, a March 1996 version and a July 1997
version; the March 1996 has no standard CBA format or structure and the July 1997 version does
not require a CBA for any project."

Despite the assertions of these officials, the FDIC did have a SDLC process in 1995, the
Electronic Data Processing (EDP) Project Guide. The FDIC's EDP Project Guide, which was
based on the METHOD/1 SDLC methodology that FDIC purchased from Arthur Andersen in
1989, required a feasibility study and CBA during the planning phase of an IT project. Although
DIRM updated the FDIC's SDLC process in March 1996, the March 1996 version required a
feasibility study and CBA for major IT projects. The March 1996 version also required system
developers to update CBAs when significant changes occurred in a project's cost, scope, or

1
  We were unable to determine the total costs related to TAPS because the FDIC did not track all costs incurred
throughout the project.


                                                           7
schedule. DIRM again updated the FDIC's SDLC process in July 1997. The July 1997 version
also required a feasibility study and CBA for major IT projects.

As the FDIC pursues a new direction to satisfy the FDIC's personnel processing requirements,
we believe that DIRM and DOA should follow generally accepted SDLC practices and formally
evaluate the feasibility and cost-benefit of alternative solutions. The FDIC's SDLC Manual
requires that a feasibility study and CBA be completed before committing full life cycle
resources. Other government and industry guidelines also stress the importance of feasibility
studies and CBAs. For example, Evaluating Information Technology Investments, a practical
guide issued jointly by the Office of Management and Budget (OMB) and GAO in November
1996, recommends that management evaluate the cost-benefits and risks of IT projects before
making significant investments in those projects. We also believe that the results of DIRM’s and
DOA's evaluation should be presented to the FDIC's IT Council for approval before investing
significant life cycle resources or executing additional contracting actions. The FDIC’s IT
Council is responsible for ensuring that strategic IT planning is performed from a corporate
perspective.

Proposed changes to the FDIC's SDLC Manual would require that CBAs be updated and
approved by DIRM’s Deputy Director when significant changes occur in the project's scope,
estimated resources, or timeframes. While updating CBAs throughout a project's life cycle is
consistent with sound business practices and guidelines, such as OBM Circular A-130, we
believe that subsequent approvals of CBAs should be made at a higher level of management,
such as the IT Council, when significant changes occur in a project's scope, cost, or schedule.


Key Assumption for Proceeding with TAPS Based on Inaccurate Information

One of the FDIC's key assumptions for continuing with the TAPS project was based on
inaccurate information. Specifically, cost-benefit information used by senior management
throughout the project assumed that implementing TAPS would correct certain internal control
weaknesses that had been reported by GAO in prior year financial statement audit reports. In its
audit of FDIC's 1995 financial statements, dated July 1996, GAO reported, "As in previous
audits, our 1995 audits continued to identify deficiencies in adherence to required procedures in
preparing time and attendance reports, separation of duties between timekeeping and data entry
functions, and reconciliation of payroll reports to time cards."

During May and June 1998, when the FDIC drastically reduced the projected cost savings
attributed to TAPS, senior FDIC management cited benefits for continuing TAPS development
efforts. These management officials placed particular reliance on the assumption that TAPS
would correct the internal control deficiencies noted earlier by GAO. However, the FDIC had
taken other actions during 1996 to address GAO's internal control concerns related to the FDIC's
time and attendance processes.

In its audit of the FDIC's 1996 financial statements, dated June 1997, GAO reported, "We found
that the implementation of these new procedures effectively addressed the internal control issues
we identified in the time and attendance reporting process in our prior year's audits." We spoke



                                                8
with a GAO official and confirmed that the FDIC's implementation of time and attendance
reporting procedures during 1996 had effectively addressed the internal control issues identified
in GAO's prior year audits. The GAO representative also informed us that, as of June 4, 1998,
there were no outstanding internal control issues relating to the FDIC's time and attendance
processes.

We advised the TAPS Steering Committee of our research and discussions with GAO on June 9,
1998. We informed the committee that TAPS was not needed to address earlier GAO concerns
and that internal control weaknesses cited by GAO in prior years should not be used as a reason
for continuing with TAPS development. However, members of the TAPS Steering Committee
disputed the information provided and continued with TAPS development activities until the
project was ultimately terminated in July 1998. Although management disagreed with the
information we provided them regarding GAO’s lack of time and attendance control concerns,
their current proposal to acquire an integrated corporate human resources system calls for
postponing implementation of the FDIC’s time and attendance requirements.


Recommendations

We recommend that the Director, Division of Information Resources Management:

(1) Modify the FDIC’s SDLC process to require a formal evaluation of feasibility and cost-
    benefits for alternative solutions to satisfy the FDIC's system development requirements and
    present this information to the FDIC's IT Council for approval before committing significant
    life cycle resources to a particular alternative.

(2) Maintain current, accurate, and complete cost-benefit information throughout the project and
    regularly compare this information to that which was relied upon by senior management at
    the outset of the project.

(3) Revise the FDIC’s SDLC Manual to require project staff to advise senior management when
    significant deviations occur in the project's cost-benefit information, timelines for
    implementation, or risk and present this information to the FDIC’s IT Council for approval
    prior to proceeding with the project.


DIRM’S CONTRACT MANAGEMENT NEEDS IMPROVEMENT

Despite management’s commitment to follow the FDIC’s structured development approach in
response to recommendations in our initial TAPS audit report, the FDIC entered into several
contracts for the design and development of TAPS without first completing and approving user
requirements. In addition, the project development schedules and cost estimates used to obtain
senior management approval of the TAPS contracts were not supported by detailed analyses or
documentation. We also noted that the terms of the TAPS contracts were broad and did not
require the contractor to provide deliverable products within specified timeframes. Such
contracts typically require increased contractor oversight. However, DIRM's oversight of the



                                                9
TAPS contractor was ineffective. Contractor concerns were not addressed in a timely manner, if
at all, and were not regularly communicated to senior management.

The FDIC's SDLC process requires that user requirements be defined, documented, and
approved before making significant investments in detailed design and development work. The
FDIC's lack of adherence to prescribed SDLC procedures, coupled with DIRM’s ineffective
contractor oversight, contributed to project delays, unnecessary costs, and the ultimate
termination of TAPS development activities.


Contract Initiation

In discussions during May and June 1997 and in our September 1997 report, we advised
management that the project team had increased the risks associated with a successful
completion of the project by performing design and development work before functional
requirements were finalized. We reported that as much as 90 percent of the TAPS design work
that had been completed as of June 1997 had to be re-performed because of changes in user
requirements.

The FDIC awarded a $1.9 million contract in July 1997 for the design and development of
TAPS, again without first completing and approving a functional requirements document (FRD).
The FDIC's SDLC process requires that user requirements be defined, documented, and
approved in an FRD before making significant investments in detailed design and development
work. The risk in performing development work before requirements have been defined is that if
business requirements change or do not receive management approval, the investment in the
development work may not benefit the project or the Corporation. Validation of requirements
early in a system's life cycle development is important because failure to validate requirements
can result in frequent and expensive changes in later life cycle phases. Given the complexity of
the proposed TAPS system, the project team could not have completed TAPS requirements
definition and obtained approval of an FRD by July 1997, which is when the FDIC awarded a
contract for the development of TAPS.

The FDIC's contractor recognized that TAPS user requirements had not been completely defined
or approved when it submitted its contract proposal in July 1997. The contractor proposed that
the FDIC's requirements first be validated for accuracy and completeness before initiating
development work. The contractor also proposed that an evaluation be performed of the TAPS
design to ensure that it correctly translated TAPS requirements into a system that would operate
properly in DIRM's planned three-tier architecture. DIRM’s three-tier architecture comprises the
hardware, communications, and operating software for applications processing in a client-server
environment.

The FDIC’s TAPS Steering Committee approved the award of the TAPS contract without
detailed information regarding how DIRM determined that TAPS development and
implementation could be completed by February 1998 at a cost of $1.9 million. We spoke with
the DIRM oversight manager for TAPS and learned that DIRM had not performed a detailed
analysis supporting the projected costs and delivery dates. Subsequent extensions in the project



                                               10
schedule and increases in the project cost indicate that DIRM's estimated costs and
implementation date were not adequately analyzed.

As the project progressed, the TAPS project team did not finalize the FRD or the TAPS technical
architecture. As discussed in the following section of this report, beginning in August 1997, the
TAPS contractor expressed concerns that unresolved TAPS requirements and design issues could
significantly affect the project schedule. However, DIRM's oversight manager did not
effectively address these issues in a timely manner.

On March 18, 1998, the FDIC increased funding under the TAPS contract by $492,423 (25
percent) to complete development and testing of TAPS. However, the FDIC had still not
completed an FRD or external design document (EDD) for TAPS. An EDD translates the
requirements defined in an FRD into a structure that facilitates development of the system. In
addition, many questions remained regarding the viability of the TAPS, including whether the
complexity of certain requirements could be resolved, what the final versions of the FRD and
EDD would encompass, and whether in-house development was the most cost-effective
approach to satisfy the FDIC's needs. In spite of these uncertainties and the stated intent of the
March 18, 1998 contract to complete development and testing, the FDIC awarded a $299,975
“bridge contract” on May 21, 1998 for TAPS development and implementation. On the same
day, the FDIC awarded another TAPS contract valued at $1.47 million to enhance and
implement TAPS. However, as with previous TAPS contracting actions, the FDIC had still not
completed an FRD or EDD for TAPS.

Less than a month after the May 1998 contracting actions, the TAPS Steering Committee
significantly reduced the scope of the TAPS project. In June 1998, DIRM and DOA directed its
contractor to complete the TAPS FRD and EDD and in July 1998, discontinued development of
TAPS. Management desired the completion of the FRD and EDD to refine requirements to
support possible future development. At the completion of the project in July 1998, the FDIC
had expended over $6.5 million on TAPS and completed only two SDLC deliverable products,
an FRD and EDD.


Recommendations

We recommend that the Director, Division of Information Resources Management:


(4) Ensure that pre-requisite SDLC phases are substantially complete and require SDLC
    deliverable products to be finalized and approved by senior management before proceeding
    with subsequent SDLC phases.

(5) Ensure that system development contracts provide for specific SDLC deliverable products to
    allow oversight managers to better monitor contractor progress.




                                                11
Contractor Oversight Not Effective

DIRM did not adequately oversee contractor activities related to the project and did not
effectively communicate with contractor staff responsible for developing TAPS. Specifically,
DIRM's oversight manager for TAPS did not ensure that requirements were defined and design
issues resolved. In addition, DIRM’s contract oversight manager did not regularly communicate
the contractor’s concerns to senior DIRM or client management. We noted that these concerns
were being raised by the contractor in its weekly status reports throughout the project. Not
addressing and resolving these issues in a timely manner caused inefficiencies and delays in the
development process and resulted in the technically deficient system design that had to be re-
performed at additional costs to FDIC.

The contract required the TAPS contractor to perform its work in accordance with the FDIC's
SDLC process. However, it did not require the contractor to develop or complete any specific
SDLC deliverable products within a particular time period. Contracts of this nature typically
require a higher degree of contractor oversight than contracts containing fixed deliverables and
delivery schedules. However, DIRM's contract oversight manager did not require the contractor
to develop a project work plan for the project that met the criteria stated in the SDLC Manual
and was required by the TAPS contract. Project work plans serve as a basic management tool for
oversight managers in monitoring contractor activities.

As early as August 1997, the FDIC’s TAPS contractor began reporting in its weekly status
reports that ongoing changes to TAPS screen designs could seriously impact the development
schedule. In September 1997, the contractor began reporting that ongoing changes to TAPS
system architecture requirements could dramatically alter TAPS design specifications and
implementation schedules. Although the TAPS Steering Committee decided to minimize screen
design changes in September 1997, screen designs for some portions of the system continued to
change.

Ongoing changes to TAPS requirements and design continued to plague TAPS throughout the
life of the project. In its status report for the period of November 1-7, 1997, the TAPS contractor
reported, "It is imperative that the screen designs be frozen immediately. This is essential so that
progress on the remainder of the development effort can continue based on known decisions
thereby reducing the risk of re-work." By February 1998, the requirements and design issues had
still not been resolved. In its status report for February 21-28, 1998, the contractor stated, "a
considerable number of issues remain open. Many of these issues directly affect system design
and functionality. Delays in resolving these issues will negatively impact the project schedule."

Despite the unresolved requirements and design issues, DIRM approved the contractor's
proposed technical architecture for TAPS on February 26, 1998. Approximately 4 days later,
DIRM verbally advised the contractor that the proposed TAPS architecture was technically
deficient and would not operate properly in the FDIC's planned three-tier architecture, even
though this architecture was still being designed. On April 27, 1997, the contracting officer for
TAPS issued a letter to the TAPS contractor, rejecting its February 1997 invoice for
$339,531.45, stating, "The product(s) delivered to the FDIC are unacceptable. Specifically, the




                                                12
external design of the system being developed was technically deficient as proposed and needed
to be completely redone at additional cost in order for it to be workable."

However, under the terms of the TAPS contract, the FDIC's contractor was not required to
provide any system deliverable products, but rather "systems development and implementation
support services." In a May 7, 1998 letter to the contracting officer, the contractor stated that
had it been the FDIC's intent for the TAPS contract to be a product contract, then a contract
administration plan should have been prepared and delivered to the contractor. Such a plan
should have defined specific products and delivery requirements and defined the acceptable
criteria FDIC would use to measure required products. The contractor indicated that it never
received such a plan. On
May 13, 1997, DIRM requested that the contracting officer pay the contractor's February 1998
invoice.

DIRM's oversight manager for TAPS did not ensure that a project work plan was developed for
the project, as required by the FDIC's SDLC process. Project work plans serve as a basic
management tool for oversight managers in monitoring contractor activities. According to the
FDIC's SDLC Manual, the purpose of a project work plan is to formally capture and document
agreements among project participants regarding project scope, tasks, schedule, allocated
resources, and interrelationships with other projects. The Manual states, "the Project Work Plan
will make clear the responsibility and accountability of the various parties." By securing an
informed agreement at the start, and revisiting the agreement throughout the project's life cycle,
developers can better prevent cost and schedule overruns and ensure that the project will meet
expected results.

Although the contractor provided the DIRM project manager with a scheduling product that
identified required tasks and timeframes for completing those tasks, the scheduler did not provide the
detail prescribed by the FDIC's SDLC Manual. The SDLC Manual states, “Project Managers should
use Microsoft Project, an automated planning tool, to develop a work breakdown structure (WBS).”
However, the WBS contains only one element of the project plan described in the FDIC’s SDLC
Manual. Missing are important attributes of the plan, including project description, project team
description, acquisition strategy, risk and control measures, required deliverables, and required
review authorities. In addition, the use of Microsoft Project as a TAPS planning tool was not
implemented as intended by the manual, because the TAPS project plan had no method of tracking
task resource requirements. Obtaining formal, senior management approval of a project work plan
ensures that management has the information necessary to make informed decisions on the project
and that changes in the project's scope, costs, and time schedules are adequately controlled.

Recommendations

We recommend that the Director, Division of Information Resources Management:

(6) Ensure that oversight managers develop project work plans as prescribed by the FDIC's
    SDLC Manual that contain measurable tasks and milestones, clearly defined roles,
    responsibilities, and accountability and provide this information to senior management for
    decision-making on IT projects.



                                                 13
(7) Ensure that oversight managers develop progress reports that compare results being
     achieved to projected costs, benefits, and risks so that potential managerial, organizational,
    or technical problems can be identified.


DIRM’s INTERNAL CONTROL PROCESS WAS NOT EFFECTIVE

DIRM’s implementation of a risk assessment program, as required by FDIC Circular 4010.3,
FDIC Internal Control Programs and Systems, did not provide management with accurate
information on risks and related controls. The FDIC implemented the program in accordance
with the Chief Financial Officers Act of 1990 to evaluate risks by accountability unit and to
measure the effectiveness of controls to mitigate the risks.

The FDIC circular requires accountability unit managers to assess risks to their program areas
and alert management to potential weaknesses. However, despite the significant problems
encountered by FDIC on recent system development efforts, DIRM’s Assistant Director,
Corporate Applications Branch, rated all functions within his branch as a “1” (the lowest risk
rating available) in February 1997. The Assistant Director also stated in his narrative,
“Corporate Application Branch rates as ‘Low Risk’ the susceptibility of its functions to waste,
loss, unauthorized use, or misappropriation.”

Based on our reviews of system development projects since 1996 that showed the FDIC’s own
experience with the lack of controls over the SDLC process and a history of several expensive
projects that were less than successful, this rating was not indicative of the controls over the
process used to develop TAPS. Without accurately depicting the internal control environment
within that branch, senior management officials will not have the information they will need to
correct the deficiencies of that branch’s control mechanisms.


Recommendation

We recommend that the Director, Division of Information Resources Management:

(8) Require senior management officials to accurately assess the controls over the SDLC process
    being used within their areas of responsibility and implement effective controls when
    existing controls are deficient.


CORPORATION COMMENTS AND OIG EVALUATION

On January 29, 1999, the Director, DIRM, provided a written response to the draft report. The
response is presented in Appendix II to this report.

The Director, DIRM, stated that his office cannot unilaterally implement recommendations one
and three because implementation of these recommendations would require the approval by the



                                                 14
IT Council. We agree with his statement. Subsequent correspondence with the Director and the
Special Assistant to the Deputy to the Chairman and Chief Operating Officer indicated that the
Deputy to the Chairman and Chief Operating Officer will convene a meeting to review the issues
of cost-benefit analyses thresholds and IT Council approvals after this audit report is issued.

The Corporation’s written response and subsequent correspondence provides the elements
necessary for management decisions on the report’s recommendations.




                                              15
                                                                               APPENDIX I

                       CHRONOLOGY OF KEY TAPS DATES

Date

1995

June        FDIC issued a Bi-Weekly Time and Attendance Project Task Force report that
            recommended developing a fully automated time and attendance system in two
            phases.

1996

April       First phase of the development of a fully automated time and attendance
            processing system, the Corporate Time and Attendance Worksheet was
            implemented.

November    OIG initiated TAPS audit.

1997

April       TAPS development (Phase II) experienced problems and the effort was
            redirected.

May/June    OIG met with FDIC management about the need to revisit the cost-benefit of
            developing TAPS in-house and examine other alternatives, the need for more
            detailed progress information, and the need for DIRM to discipline itself to
            completing pre-requisite development phases before starting subsequent phases.
            Management agreed to implement our oral suggestions.

July        FDIC awarded a $1.9 million contract to develop TAPS in-house without
            performing pre-requisite work contained in the OIG suggestions.

August      TAPS contractor began raising concerns about continuing changes to
            requirements and system architecture.

September   OIG issued final audit report on the shortcomings of the TAPS development,
            formalizing our recommendations. Management agreed to implement the
            recommendations.

October     FDIC’s Audit Committee requested OICM to evaluate the effectiveness of
            controls in the FDIC’s SDLC methodology. The OIG reviewed a revised draft
            CBA and provided oral comments to management. The CBA still did not
            consider other alternatives and projected cost savings were overly optimistic.




                                            16
                                                                             APPENDIX I

                      CHRONOLOGY OF KEY TAPS DATES

Date

1997

December   TAPS Steering Committee approved CBA supporting in-house development of
           TAPS. OIG expresses concerns that CBA still did not consider other alternatives
           and projected cost savings were overly optimistic. DIRM’s Deputy Director
           stated that projected cost savings were so significant that evaluation of other
           alternatives was not warranted.

1998

January
   to
  June     OIG worked with OICM and TAPS Steering Committee regarding CBA, internal
           control issues, contractor oversight, and system architecture.

February   DIRM accepted and later rejected TAPS contractor’s proposed system
           architecture.

March      OICM reported to the Audit Committee and confirmed OIG findings and
           recommendations. TAPS Steering Committee approved $492,423 increase in
           TAPS development contract (25 percent of original contract value) without
           reassessing CBA and project risks.

May        TAPS Steering Committee awarded an additional $299,975 “bridge” contract for
           the TAPS project. On the same day, the TAPS Steering Committee awarded
           $1.47 million contract for TAPS development to a new contractor. Both
           contracting actions taken without reassessing CBA and project risks.

June       TAPS project reduced in scope to finish FRD and EDD.

July       TAPS Steering Committee terminated the project.




                                          17
                                                                                                     APPENDIX II
FDIC
Federal Deposit Insurance Corporation
3501 North Fairfax Drive. Arlington, VA 22226         Division of Information Resources Management


January 29, 1999



MEMORANDUM TO:                         David H. Loewenstein
                                       Assistant Inspector General


FROM:                                  Donald C. Demitros
                                       Director

SUBJECT:                               Revised Response to Draft Report Entitled Audit of the Time and
                                       Attendance Processing System (TAPS) Development Project

Based on meetings held on January 7th and 27th to discuss the response to the Draft Audit Report, the
Division of Information Resources Management (DIRM) revised its response to address OIG
concerns. This revised response also provides clarification for some specific items discussed in the
meetings.

In general, the recommendations in this report focus on breakdowns in the project management
process. DIRM recognizes this and has strengthened existing processes and established new
mechanisms to address this overall problem. These include: more complete and robust IT plans for
all projects; new management reporting; new guidelines for cost benefit analysis; post
implementation reviews; and internal controls which tie to the steps in the SDLC.

Currently, each project that exceeds $200,000 has an IT Plan established at its inception along
with appointment of a project owner from the requesting division or office. New information is
now being captured in the IT Plan including early warning, overall project issues, budget issues,
project justification, milestones, budget, and expenditures. This data is being used to produce a
new management report highlighting budget variances, project slippage, and project risks such as
poor customer participation, project scope creep, technical challenges, staffing issues, contractor
performance/management. Strict adherence is placed on cost and schedule. Expenditures for
these projects are automatically updated via a direct tie to the DIRM budget system and requests
to change completion dates for major project milestones require Branch Chief approval or higher
for key projects. In addition, during the annual budget formulation process, the funding and
justification of the project is reviewed by the requesting division’s line management, the IT
Technical Committee, and the IT Council. Processes have been established to insure that any
significant changes in major projects are brought before the IT Technical Committee for review
and approval.




                                                         18
                                                                                  APPENDIX II

New procedures for conducting a cost benefit analysis, based on OMB and DOF guidelines, have
been published and are being used on projects such as ETVS and CHRIS. These procedures will
be formally published with the next release of the SDLC. DIRM is now conducting post
implementation reviews, which include a level of review to assess a project at the time of design,
as well as looking at a project after its implementation.
Also, our new internal controls are now tied to the specific SDLC processes to ensure that we are
adhering to our development methodology. Following approval of the new management control
plan for systems development, a copy will be provided to the OIG.

For recommendations 1-4, 6 and 7, DIRM will reemphasize specific requirements and
responsibilities to all project managers by March 31, 1999. This will be accomplished through
the issuance of a memorandum from the Director of DIRM to all project managers clearly
communicating the policies referenced in this response. DIRM will also submit a revision to the
SDLC to emphasize these policies by April 30, 1999.

DIRM believes that the above actions will address the overall recommendations included in this
report. The following outlines DIRM corrective actions already taken or planned (including
anticipated due dates) in response to each individual recommendation.

Recommendation 1

       Modify the FDIC’s SDLC process to require a formal evaluation of feasibility and cost-
       benefits for alternative solutions to satisfy the FDIC’s system development
       requirements and present this information to the FDIC’s IT Council for approval
       before committing significant life cycle resources to a particular alternative.

Corrective Action

       The SDLC currently requires a project budget package, including a formal evaluation of
       alternatives, be prepared for all corporate projects expected to exceed the IT Dollar
       threshold. This threshold, currently set at $3 million, and a new formal CBA format now
       exist but were not in place when TAPS was initiated. These new guidelines and IT dollar
       threshold, which are consistent with the DOF Directive on Cost Benefit Analysis
       Methodology for the Purchase or Development of Capital Assets (Circular 4310.1), have
       been used for recent projects, such as: the Structure Information Management System;
       Electronic Travel Voucher Processing System (ETVPS); and other non-application
       projects. They are also being used to perform the Cost Benefit Analysis for the new
       Corporate Human Resources Information System (CHRIS). Also, IT Plans are required
       for all projects exceeding $200,000 and, for any of these projects that are new, a cost
       justification must be developed which includes the full life cycle costs and benefits for
       the proposed alternative. These procedures and the IT Dollar thresholds will be formally
       published with the next release of the SDLC, which will clearly state the requirement for
       performing CBA’s. DIRM, with the IT Committee, will, by April 30, 1999, also review
       the current dollar threshold to determine whether it warrants adjustment. As an interim



                                                19
                                                                                     APPENDIX II

      measure, the new guidelines (Attachment 1) and IT dollar threshold will be reemphasized
      and formally communicated to all project managers by March 31, 1999.

      DIRM will reinforce its efforts to review project progress with clients, ensuring their
      clear understanding and obtaining their approval of both original cost-benefit analyses,
      and changes that modify the results of those analyses. DIRM also will present the initial
      CBA and any updates for projects over $3 M to the IT Technical Committee. The IT
      Technical Committee will report any project issues to the IT Council.

Recommendation 2

      Maintain current, accurate, and complete cost-benefit information throughout the
      project and regularly compare this information to that which was relied upon by senior
      management at the outset of the project.

Corrective Action

      DIRM agrees that accurate cost-benefit information should be maintained and that it is the
      responsibility of the project managers to do so. It is also the project manager’s responsibility
      to review this information at critical points and alert senior management of any deviations
      (schedule setbacks, cost overruns) that warrant revision of the cost-benefit information or
      reevaluation of the project by senior management. DIRM will, by March 31, 1999, modify
      the new Cost Benefit Analysis guidelines to require project managers to review this
      information at critical points and alert senior management of any deviations (schedule
      setbacks, cost overruns) that warrant revision of the cost-benefit information or reevaluation
      of the project.

Recommendation 3

      Revise the FDIC’s SDLC Manual to require project staff to advise senior
      management when significant deviations occur in the project’s cost-benefit
      information, timelines for implementation, or risk and present this information to
      the FDIC’s IT Council for approval prior to proceeding with the project.

Corrective Action

      Alerting senior management to significant deviations in cost-benefit information, timelines,
      or increased risk is now required of all DIRM project managers. Corrective actions already
      have been taken to ensure that the problems experienced with TAPS do not reoccur. IT
      plans, required for all projects exceeding $200,000 in expenditures, have warning flags
      automatically set to alert senior management when completion dates for major project
      milestones are slipping (Refer to Attachment 2). These flags are reviewed monthly and
      project managers are required to report to DIRM senior management to explain the issues
      and obstacles causing the warning flags. Changes to schedules and projected cost



                                                20
                                                                                 APPENDIX II

      expenditures are tightly controlled. A Branch Chief must approve changes to schedules on
      all projects. The expenditures are automatically updated, and therefore controlled via the
      budget system. These requirements will be formally reemphasized and communicated to all
      project managers by March 31, 1999.

      Also, the CHRIS Steering Committee has developed a charter outlining their roles and
      responsibilities – the charter tasks the Steering Committee with the responsibility for
      ensuring that the project stays on schedule and within budget. The Committee will hold
      meetings every three weeks at which the project managers will report on progress versus the
      project plans and budget, and advise the Committee of any potential obstacles or previously
      unforeseen risks.

      The IT Council provides the approval authority for the initiation of IT systems development
      projects. It is the responsibility of project managers and, if appropriate, Steering
      Committees, to ensure projects are reviewed and reevaluated at critical management
      checkpoints during the life cycle of the systems development effort. In addition, schedule
      slippage of more than 60 days or projected cost overruns of more than 20 percent for any
      major project will be presented to the IT Technical Committee for management action. The
      IT Committee will report these project issues to the IT Council. DIRM will arrange, by
      March 31, 1999, for the OIG to meet with the IT Committee to discuss the OIG proposal to
      change the charters of the IT Committee or IT Council to approve such deviations to project
      schedules or costs.


Recommendation 4

      Ensure that prerequisite SDLC phases are substantially complete and require SDLC
      deliverable products to be finalized and approved by senior management before
      proceeding with subsequent SDLC phases.


Corrective Action

      All DIRM project managers are responsible for ensuring that prerequisite SDLC phases are
      substantially complete and approved prior to proceeding with subsequent SDLC phases.
      This process is in place but was not regularly adhered to during the TAPS systems
      development effort. Corrective actions have been taken to address these problems. As a
      model for major projects, the CHRIS Steering Committee Charter outlines specific
      responsibilities of the Committee, including ensuring that prerequisite phases of the SDLC
      are substantially complete prior to proceeding with succeeding phases. The Committee
      meets every three weeks at which time the project managers report on progress versus the
      project work plan and the completion of specific SDLC deliverables.

      The requirement to ensure that prerequisite SDLC phases are substantially complete and



                                              21
                                                                                 APPENDIX II

      approved prior to proceeding with subsequent SDLC phases will be highlighted in the next
      SDLC revision. This requirement will be formally reemphasized and communicated to all
      project managers by March 31, 1999.

Recommendation 5

      Ensure that system development contracts provide for specific SDLC deliverable
      products to allow oversight managers to better monitor contractor progress.

Corrective Action

      Once oversight of the TAPS contractor was found to be inadequate, steps were
      successfully taken to correct these problems – for example, on-site contractor oversight
      was provided, and daily project status meetings were held to more closely monitor the
      contractor’s progress.

      To ensure the lessons learned from the TAPS project carry over to subsequent
      development projects, DIRM began a contracting improvement project that includes nine
      major initiatives. Among the nine initiatives is the development of an expanded
      description of SDLC requirements for all systems development contracts, and a
      consultant’s review of IT Acquisition best practices. The best practice review will look
      for ways to improve the actual systems development contract vehicles to ensure that
      DIRM receives optimal IT services and products from its systems development contracts.

      DIRM will also review all existing systems development contracts by March 31, 1999, to
      ensure they contain language requiring appropriate SDLC deliverable products. DIRM
      and ASB have developed standard statement of work (SOW) language for systems
      development contracts to ensure that the appropriate SDLC deliverable products are
      specified in all future contracts. This standard language is currently undergoing internal
      review and is expected to be ready for communication to all Oversight Managers by
      March 31, 1999.

Recommendation 6

      Ensure that oversight managers develop project work plans as prescribed by the
      FDIC’s SDLC Manual that contain measurable tasks and milestones, clearly defined
      roles, responsibilities, and accountability and provide this information to senior
      management for decision-making on IT projects.




                                              22
                                                                                   APPENDIX II
Corrective Action

      Project managers currently develop project work plans with the appropriate SDLC tasks,
      milestones, roles, and responsibilities. Plans developed for TAPS were not adhered to
      consistently and corrective action has already been taken to ensure this does not reoccur with
      future (major) IT projects.

      For example, the CHRIS Steering Committee will meet regularly and be briefed by the DOA
      and DIRM project managers to ensure that the work plans are reasonable and schedules are
      being met.

      DIRM will continue to place emphasis on robust project work plans that adhere to the
      FDIC’s SDLC and are regularly presented to senior management to help with decision
      making. DIRM will formally reemphasize and communicate these requirements to project
      managers by March 31, 1999.

Recommendation 7

      Ensure that oversight managers develop progress reports that compare results being
      achieved to projected costs, benefits, and risks so that potential managerial,
      organizational, or technical problems can be identified.

Corrective Action

      DIRM project managers are required to update information in their respective IT Plans
      including budget, cost, milestones, and management issues on a monthly basis. Management
      reports are produced from the data in the IT Plan database which highlight budget variances,
      project slippage, and overall project risks. These reports are used in project review meetings
      with DIRM senior management and project managers. DIRM will formally reemphasize and
      communicate the requirement to update the IT Plans on a monthly basis to project managers
      by March 31, 1999.

Recommendation 8

      Require senior management to accurately assess the controls over the SDLC process
      being used within the areas of their responsibility and implement effective controls
      when existing controls are deficient.

Corrective Action

      DIRM has recently completed a redesign of its internal control program, which includes
      an assessment of the risks, control objectives and control techniques for all DIRM
      operations, including systems development. By March 31, 1999, DIRM will conduct a
      review of the identified controls over the SDLC process to determine if additional
      controls are warranted.



                                               23
Please address any questions to Mr. Rack Campbell, DIRM’s Audit Liaison, at 516-1422.

Attachment




                                             24
                                                                                                                                                                      APPENDIX III
                                                                  MANAGEMENT RESPONSES TO RECOMMENDATIONS

The Inspector General Act of 1978, as amended, requires the OIG to report the status of management decisions on its recommendations in its semiannual reports to the Congress. To consider
FDIC’s responses as management decisions in accordance with the act and related guidance, several conditions are necessary. First, the response must describe for each recommendation

    §    the specific corrective actions already taken, if applicable;
    §    corrective actions to be taken together with the expected completion dates for their implementation; and
    §    documentation that will confirm completion of corrective actions.

If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons for any disagreement. In the case of questioned
costs, the amount FDIC plans to disallow must be included in management’s response.

If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered valid.
Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation confirming completion of corrective actions are
responsive to its recommendations.

This table presents the management responses that have been made on recommendations in our report and the status of management decisions. The information for management decisions is
based on management’s written responses to our report and subsequent discussions with management.
                                                                                                                 Documentation That                             Management
   Rec.                                                                                 Expected                     Will Confirm            Monetary          Decision: Yes or
 Number                  Corrective Action: Taken or Planned/Status                  Completion Date                 Final Action             Benefits                No
               DIRM will reemphasize specific requirements and
               responsibilities to all project managers through the issuance of                                     Specific changes to the
               a memorandum by March 31, 1999. DIRM will also submit a                                                SDLC Manual and
     1         revision to the SDLC to emphasize these polices by                        April 30, 1999                                           None                  Yes
                                                                                                                    memorandum to project
               April 30, 1999. DIRM, with the IT Technical Committee, will                                                managers.
               review current CBA dollar thresholds.
               DIRM will reemphasize specific requirements and                                                       Specific changes to the
               responsibilities to all project managers through the issuance of                                     SDLC Manual, modified
               a memorandum by March 31, 1999. DIRM will also submit a                                                                                                  Yes
     2                                                                                   April 30, 1999               CBA guidelines and          None
               revision to the SDLC to emphasize these polices by                                                   memorandum to project
               April 30, 1999. DIRM will modify CBA guidelines.                                                            managers.
               DIRM will reemphasize specific requirements and
               responsibilities to all project managers through the issuance of                                     Specific changes to the
               a memorandum by March 31, 1999. DIRM will also submit a                                                SDLC Manual and
     3         revision to the SDLC to emphasize these polices by                        April 30, 1999             memorandum to project         None                  Yes
               April 30, 1999. DIRM will arrange for the OIG to meet with IT                                        managers. OIG meeting
               Council to discuss the changes in charters of the IT Council and                                      with the IT Council.
               Technical Committee.




                                                                                             25
                                                                                                                          APPENDIX III

                                        MANAGEMENT RESPONSES TO RECOMMENDATIONS



    DIRM will reemphasize specific requirements and
    responsibilities to all project managers through the issuance of                     Specific changes to the
    a memorandum by March 31, 1999. DIRM will also submit a                             SDLC Manual guidelines
4                                                                      April 30, 1999                              None    Yes
    revision to the SDLC to emphasize these polices by                                    and memorandum to
                                                                                           project managers.
    April 30, 1999.
                                                                                         Specific changes to the
    DIRM will review all existing system development contracts to
                                                                                           SDLC Manual and
5   ensure contracts require specific deliverables and communicate     March 31, 1999                              None    Yes
                                                                                           communication to
    this to all oversight managers.
                                                                                          oversight managers.
    DIRM will reemphasize specific requirements and
    responsibilities to all project managers through the issuance of                     Specific changes to the
    a memorandum by March 31, 1999. DIRM will also submit a                             SDLC Manual guidelines
6                                                                      April 30, 1999                              None    Yes
    revision to the SDLC to emphasize these polices by                                    and memorandum to
                                                                                           project managers.
    April 30, 1999.
    DIRM will reemphasize specific requirements and
    responsibilities to all project managers through the issuance of                     Specific changes to the
    a memorandum by March 31, 1999. DIRM will also submit a                             SDLC Manual guidelines
7                                                                      April 30, 1999                              None    Yes
    revision to the SDLC to emphasize these polices by                                    and memorandum to
                                                                                           project managers.
    April 30, 1999.
                                                                                          Documentation of
    DIRM will conduct a review of the identified controls over the
8                                                                      March 31, 1999   DIRM’s internal control    None    Yes
    SDLC process to determine if additional controls are warranted.
                                                                                              review.




                                                                           26
